HHS/OIG, Audit -"Audit of Blue Cross Blue Shield of South Carolina's Unfunded Pension Costs for the Period Covering
1994 Through 2001,"(A-07-04-00178)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Blue Cross Blue Shield of South Carolina's Unfunded Pension Costs for the Period Covering 1994 Through
2001," (A-07-04-00178)
February 18, 2005
Complete
Text of Report is available in PDF format (219 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of our review were to (1) determine if the accumulated unfunded pension costs identified in our prior
review were accounted for properly; (2) determine if pension costs for plan years 1994-2001 were funded in accordance with
the Federal Acquisition Regulations (FAR) and the Cost Accounting Standards (CAS); and (3) identify and properly account
for any additional accumulated unfunded pension costs.  We found that South Carolina properly accounted for the accumulated
unfunded pension costs identified in our prior review.  Additionally, South Carolina funded the pension costs for
plan years 1994-2001 in accordance with the FAR and the CAS.  However, South Carolina did not correctly identify or
properly account for the additional accumulated unfunded pension costs due to a lack of adequate policies and procedures.  The
accumulated unfunded pension costs consist of the accumulated unallowable pension costs and the accumulated reassignable
pension costs.  South Carolina correctly identified and properly accounted for the accumulated unallowable pension
costs.  We recommended South Carolina should (1) decrease the accumulated reassignable pension costs of the Medicare
segment by $467,768 as of January 1, 2002; (2) identify the accumulated reassignable pension costs of the Other segment
as $3,471,124 as of January 1, 2002; and (3) establish procedures to annually update the reassignable pension costs for
the Medicare and Other segments.  South Carolina agreed with our draft report findings and recommendations, and stated
it would implement our recommendations.